No. 20-1786
IN THE

Supreme Court of the United States
————
JOANNE TROESCH AND IFEOMA NKEMDI,
Petitioners,
v.
CHICAGO TEACHERS UNION, LOCAL UNION NO. 1,
AMERICAN FEDERATION OF TEACHERS, AND THE
BOARD OF EDUCATION OF THE CITY OF CHICAGO,

Respondents.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
————
AMICI CURIAE BRIEF OF
JASON KOHUTE AND CAROL SHANER
IN SUPPORT OF PETITIONERS
————
NATHAN J. MCGRATH
Counsel of Record
DANIELLE R. ACKER SUSANJ
THE FAIRNESS CENTER
500 N. Third Street, Suite 600B
Harrisburg, PA 17101
(844) 293-1001
njmcgrath@fairnesscenter.org
Counsel for Amici Curiae
August 26, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

QUESTION PRESENTED
In 2018, the Court in Janus v. AFSCME, Council 31
held that public employees have a First Amendment
right not to subsidize union speech. 138 S. Ct. 2448,
2486 (2018). The Court also held that governments
and unions violate that right by seizing union dues or
fees from employees unless there is clear and compelling evidence the employees waived that constitutional right. Id.
Illinois and many other states are resisting Janus’s
holding by prohibiting employees who signed dues
deduction forms from exercising their right to stop
subsidizing union speech except during short escape
periods—generally only ten to thirty days each year.
The Seventh Circuit below, as well as the Third,
Ninth, and Tenth Circuits, have upheld these
restrictions, finding the government does not need
proof of a waiver to restrict when employees can
exercise their First Amendment rights under Janus,
but that proof of employee contractual consent is
enough to allow the government to seize union dues
from employees over their objections.
The question presented is:
Under the First Amendment, to seize payments for
union speech from employees who provide notice they
are nonmembers and object to supporting the union,
do governments and unions need clear and compelling
evidence those employees knowingly, intelligently,
and voluntarily waived their First Amendment rights
and that enforcement of the purported waiver is not
against public policy?

(i)

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

TABLE OF AUTHORITIES ................................

iv

INTEREST OF AMICUS CURIAE .....................

1

SUMMARY OF ARGUMENT .............................

2

REASONS FOR GRANTING THE PETITION....

3

I.

The Petition Seeks Clarity as to the
Rights of Millions of Public Employees
Across the Country ...................................

3

A. Escape-Period Restrictions Impermissibly Restrict When and How Millions
of Public Employees Can Exercise
Their First Amendment Rights ..........

4

B. Public Employers’ Deference to Union
Officials’ Uses of Membership Application Language Further Threatens
Public Employees’ Constitutional
Rights ...................................................

6

C. Escape-Period Restrictions Allow
Governments and Unions to Force
Non-Member Public Employees to
Pay Hundreds of Dollars Against
Their Will Toward Political and
Ideological Projects ..............................

9

CONCLUSION ....................................................

9

(iii)

iv
TABLE OF AUTHORITIES
CASES

Page(s)

Chi. Tchrs. Union, Loc. No. 1 v. Hudson,
475 U.S. 292 (1986) ...................................

8

Curtis Publ’g Co. v. Butts,
388 U.S. 130 (1967) ...................................

4

Janus v. AFSCME, Council 31,
138 S. Ct. 2448 (2018) ...............................

3, 4

COURT FILINGS
Compl., Krawczyk v. N.Y. State United
Tchrs., et al., No. 5:21-cv-00635-GTS-ML
(N.D.N.Y. June 2, 2021), ECF No. 1 ........

5

Compl., Rorabaugh v. Serv. Emps. Int’l
Union, Loc. 668, et al., No. 4:20-cv-02463MWB (M.D. Pa. Dec. 30, 2020), ECF
No. 1 ..........................................................

7

Compl., Yanoski v. Serv. Emps. Int’l Union,
Healthcare Pa., et al., No. 1:21-cv-00414JPW (M.D. Pa. Mar. 5, 2021), ECF No. 1

7

Def. AFSCME Council 13’s Mot. to Dismiss
Ex. 8, Fultz, et al. v. Am. Fed’n of State,
Cnty. and Mun. Emps., Council 13, et al.,
No. 1:20-cv-02107-JEJ (M.D. Pa. Apr. 5,
2021), ECF No. 24-10 ................................

5, 7

First Am. Compl., Fultz, et al. v. Am. Fed’n
of State, Cnty. and Mun. Emps., Council
13, et al., No. 1:20-cv-02107-JEJ (M.D.
Pa. Mar. 1, 2021), ECF No. 18..................

6

v
TABLE OF AUTHORITIES—Continued
OTHER AUTHORITIES

Page(s)

Barry T. Hirsch & David A. Macpherson,
Union Membership and Coverage Database from the Current Population Survey:
Note, 56 Indus. & Labor Rels. Rev. 349
(2003), available at unionstats.com (last
visited Aug. 24, 2021) ................................

3

INTEREST OF THE AMICI CURIAE1
Jason Kohute and Carol Shaner are former members of a large Pennsylvania public-sector union, who
resigned their memberships and revoked authorization for union dues to be deducted from their wages.
But instead, the Commonwealth of Pennsylvania, their
employer, forced them to continue to subsidize the
speech and activities of the union via payroll deduction,
because the union took the position that an escapeperiod restriction in their membership applications
limited when they could terminate dues deductions.
Amici curiae desire to share their stories, and the
stories of other public employees represented by
undersigned counsel, of how governments and unions
in multiple states have seized payments from employees in reliance on these escape-period restrictions.
These union nonmembers object to supporting their
unions and have no say in how their money is used,
yet had dues seized from their paychecks, despite
having resigned.
Thus, this amicus brief provides the story of amici
curiae’s experiences with actions like those challenged
in the Petition, along with other examples from the
Commonwealth of Pennsylvania and the State of
New York, for the benefit of this Court.
1

Pursuant to this Court’s Rule 37.2(a), Petitioners and
Respondents have consented to the filing of this brief. Counsel of
record for all parties received notice at least ten days prior to
the date of filing of the Amici Curiae’s intention to file this brief.
No counsel for any party authored this brief in whole or in part,
and no counsel or party made a monetary contribution intended
to fund the preparation or submission of this brief. No one other
than the Amici Curiae and their counsel made a monetary contribution to its preparation or submission.

2
SUMMARY OF ARGUMENT
This Court should grant the Petition because the
issue it raises implicates the rights of millions of
workers across the country, including over a million
public employees in Pennsylvania and New York. Like
petitioners, amici curiae and countless other public
sector workers have found their desire to end their
association with and financial support of a publicsector union thwarted, due to a union’s invocation
of an escape-period restriction. Because public
employees currently lack clear guidance on whether
union officials can use opaque language in a membership application to limit their rights, this case is of
importance to workers across the country.
Escape-period restrictions severely limit when public employees can exercise their fundamental First
Amendment rights for up to 95% of each year. Instead,
amici curiae, like other public employees, found their
requests to end financial support of a union denied,
while their public employer, the Commonwealth of
Pennsylvania, sided with the union’s decision that
dues deductions should continue.
Given the First Amendment rights already at stake,
public employers’ decisions to defer to a union’s
deployment and interpretation of its membership
application are especially problematic in practice.
Amici curiae have argued that the language enforced
against them is ambiguous, while the union claims it
automatically renews and requires re-notification
even after acknowledging that the employees are no
longer union members. And other public employees
have had union officials and public employers ignore
their resignation requests, or enforce language
against them that they allege they never even saw.

3
Ultimately, escape-period restrictions undermine
decades of this Court’s precedent, which has long
recognized a nonmember’s right, at a minimum, not to
fund a public union’s political and ideological expenditures. Yet amici curiae were forced to pay the full
amount of dues as nonmembers, continuing to fund
political and ideological speech with no protections,
despite not being union members.
This Court should grant the Petition for Writ of
Certiorari to reaffirm the fundamental constitutional
principle that public employees who choose to end
their association with a public-sector union have the
right and freedom not to subsidize a union’s speech
and activities.
REASONS FOR GRANTING THE PETITION
I. The Petition Seeks Clarity as to the Rights
of Millions of Public Employees Across the
Country
In Pennsylvania and New York alone, there are over
1.2 million public-sector union members.2 This Court’s
recent decisions mean that these employees have
the right not to financially support a union, if they
choose to be nonmembers. Yet across the country,
including in Pennsylvania and New York, governments
and unions are utilizing escape-period restrictions to
force employees to continue financing the union after
their memberships end. Thus, public employees like
amici curiae who, in the wake of Janus v. AFSCME,
2

See Barry T. Hirsch & David A. Macpherson, Union Membership and Coverage Database from the Current Population Survey: Note, 56 Indus. & Labor Rels. Rev. 349–54 (2003) (updated
annually at unionstats.com and reporting 334,809 public employee
union members in Pennsylvania and 873,988 public employee
union members in New York as of 2020).

4
Council 31, 138 S. Ct. 2448 (2018), sought to end their
financial support of a union, have found their efforts
thwarted. Government employers routinely side with
union officials, and their interpretation of union
membership applications, in denying requests to end
the deduction of dues. Public employees across the
country, therefore, need this Court’s guidance on
whether, or under what circumstances, they can be
forced to pay money to a union, even when they are no
longer union members.
A. Escape-Period Restrictions Impermissibly Restrict When and How Millions
of Public Employees Can Exercise
Their First Amendment Rights
Public employees who are not members of a union
have a right not to subsidize union speech and cannot be forced to contribute dues or fees to a union
“unless the employee affirmatively consents to pay”
by “waiving their First Amendment rights.” Janus,
138 S. Ct. at 2486. The Court added that “such a
waiver cannot be presumed,” but “must be freely given
and shown by ‘clear and compelling’ evidence.” Id.
(quoting Curtis Publ’g Co. v. Butts, 388 U.S. 130, 145
(1967) (plurality opinion)).
Amici curiae, and many other similarly situated
public employees, have been recognized as nonmembers of a union. Yet they have been and continue to be
forced to financially support a union. These employees
need clarity on how their First Amendment rights
can be harmonized with the decisions of their public
employers and unions that force them into ongoing
payments as nonmembers.
While the Janus decision imposed a constitutional
waiver requirement so that nonmembers must consent

5
to pay a union, amici curiae are nonmembers who
had money deducted from their paychecks after they
ended their memberships and clearly stated their
opposition to financially supporting their union. Yet
dues deductions continued unchanged, due to their
union’s interpretation of language in the membership
application they signed years earlier.
Mr. Kohute and Ms. Shaner signed a membership
application to their union, AFSCME, Council 13,
which imposed a narrow escape period to revoke
authorization for deduction of dues from their wages
to “the fifteen (15) days before the annual anniversary date of this authorization.” See Def. AFSCME
Council 13’s Mot. to Dismiss Ex. 8 at 3, Fultz, et al. v.
Am. Fed’n of State, Cnty. and Mun. Emps., Council 13,
et al., No. 1:20-cv-02107-JEJ (M.D. Pa. Apr. 5, 2021),
ECF No. 24-10. When amici curiae chose to resign
their memberships, in 2020, Council 13 informed them
that, while the union would recognize and treat them
as nonmembers, they could not end the deduction of
dues from their wages. And their public employer, the
Commonwealth of Pennsylvania, opted to follow the
union’s interpretation rather than amici curiae’s
direction to cease union dues deductions.
Amici curiae are not alone in being denied their
requests to end financial support of a union. Public
employees in New York have raised similar issues
in complaints filed within the last year resulting from
the denial of the decision to end support for a union.
See, e.g., Compl., Krawczyk v. N.Y. State United
Tchrs., et al., No. 5:21-cv-00635-GTS-ML (N.D.N.Y.
June 2, 2021), ECF No. 1.
As a result of these escape-period restrictions, amici
curiae could not exercise their rights to stop funding
a union when they chose. Instead, their union was

6
able to use the Commonwealth to deduct financial
support for months after amici curiae resigned their
union memberships. This delay tactic effectively narrowed the employees’ ability to exercise their right not
to fund the union to one 15-day window; essentially,
they did not have the option to end forced union dues
payments for 95% of the year. See First Am. Compl.
¶¶ 55–65, Fultz, et al. v. Am. Fed’n of State, Cnty. and
Mun. Emps., Council 13, et al., No. 1:20-cv-02107-JEJ
(M.D. Pa. Mar. 1, 2021), ECF No. 18.
B. Public Employers’ Deference to Union
Officials’ Uses of Membership Application Language Further Threatens Public Employees’ Constitutional Rights
The public employers of Petitioners and amici curiae
decided to side with their unions over the employees
in determining when deduction of dues should cease.
But factual scenarios alleged by public employees
challenging state employers’ enforcement of window
periods highlight why this Court should grant the
petition and examine this practice.
For both Mr. Kohute and Ms. Shaner, as alleged in
their Complaint, while Council 13 recognized their
resignations from the union, it planned to have the
Commonwealth keep deducting union dues from their
paycheck indefinitely. First Am. Compl. ¶¶ 45–47,
Fultz, No. 1:20-cv-02107-JEJ. And amici curiae were
told that they would need to re-notify Council 13
during the window period if they wanted to end the
deduction of their dues when their 15-day window
did arrive. Id. at ¶ 56. However, even though dues
deductions continued, union officials acknowledged
that amici curiae were no longer union members and
were not entitled to union member rights. Id. at ¶ 57.

7
As amici curiae have argued, the enforcement of
the window period by the Commonwealth and union is
especially threatening to constitutional rights due to
its ambiguous and uncertain language regarding the
window period. The language refers to an “annual
anniversary date of this authorization”—but does not
define what that date is—while also referencing dates
tied to the CBA. See, e.g., Def. AFSCME Council 13’s
Mot. to Dismiss Ex. 8 at 3, Fultz, No. 1:20-cv-02107JEJ. And the authorization for the deduction purports
to automatically renew “for the years to come.” See,
e.g., id.
Complaints filed by other public employees have
raised additional issues resulting from the public employer’s decision to defer to the union’s preference on
enforcing escape-period restrictions. Melanie Rorabaugh
resigned from her union, SEIU Local 668, but received
no response for five months. When she followed up
and sent in her resignation letter a second time, the
union responded, claiming that she had missed the
escape period they identified—which had passed less
than a month before her second letter and well after
her first letter. See Compl. ¶¶ 22–28, Rorabaugh v.
Serv. Emps. Int’l Union, Loc. 668, et al., No. 4:20-cv02463-MWB (M.D. Pa. Dec. 30, 2020), ECF No. 1.
And when Donna Yanoski resigned from SEIU
Healthcare Pennsylvania in 2020 and sent a formal
resignation letter directing the union to cease her
dues deductions immediately, she discovered, as
alleged in her complaint, that a union official had
typed her electronic signature onto a membership
application with escape-period restrictions—even
though she had never seen the membership application. Compl. ¶¶ 23–33, Yanoski v. Serv. Emps. Int’l

8
Union, Healthcare Pa., et al., No. 1:21-cv-00414-JPW
(M.D. Pa. Mar. 5, 2021), ECF No. 1.
Thus, in a variety of circumstances and across the
country, public employees are forced to support a
union when their public employer defers to how a
union deploys language in membership applications.
This Court should grant the petition to consider the
risk this practice poses to public employees’ First
Amendment rights.
C. Escape-Period Restrictions Allow Governments and Unions to Force NonMember Public Employees to Pay Hundreds of Dollars Against Their Will
Toward Political and Ideological
Projects
This Court has already made clear that nonmembers have a choice when it comes to financial support
of a public-sector union. Yet their public employer and
union blocked amici curiae’s exercise of their rights,
because they did not act within a window set by the
union. Instead, and indefinitely, the union secured the
Commonwealth’s deduction of full union dues from
their paychecks.
For decades, this Court has recognized the particular risk to First Amendment rights that arises from
compelling support from public employees for the
political speech of a union. Chi. Tchrs. Union, Loc. No.
1 v. Hudson, 475 U.S. 292, 301–02 (1986). Yet, here,
the union recognized amici curiae as nonmembers—
but, nevertheless, continued to take the full amount
of dues from their wages. Thus, amici curiae financed
all of the activities of the union, despite their
expressed objections, and with even fewer protections

9
than nonmembers have historically had for how the
money seized from them would be used.
Because the use of escape-period restrictions has
created a world in which nonmembers of a union are
once again forced to fund the union’s activities, including political speech—this time with no protections,
disclosures, or limits on the uses of those funds, this
Court should step in to clarify the rights of nonmembers of a union.
CONCLUSION
Throughout the country, public employees have
asserted their rights as nonmembers to end financial
support for a union, as recognized by this Court, only
to have their public employer and public-sector union
rely on escape-period restrictions to deny them. Public
employees need clarity on how their First Amendment
rights can be harmonized with such actions.
This Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
NATHAN J. MCGRATH
Counsel of Record
DANIELLE R. ACKER SUSANJ
THE FAIRNESS CENTER
500 N. Third Street, Suite 600B
Harrisburg, PA 17101
(844) 293-1001
njmcgrath@fairnesscenter.org
Counsel for Amici Curiae
August 26, 2021

